      Department of Homeland Security





      National Flood Insurance Program’s Management
            Letter for FY 2012 DHS Consolidated
                  Financial Statements Audit
                          (Redacted)




OIG-13-86                                      April 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                     APR 30 2013


MEMORANDUM FOR: 	            David Miller
                             Associate Administrator
                             Federal Insurance and Mitigation Administration
                             Federal Emergency Management Agency

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT: 	                   National Flood Insurance Program’s Management Letter
                             for FY 2012 DHS Consolidated Financial Statements Audit

Attached for your information is our final report, National Flood Insurance Program’s
Management Letter for FY 2012 DHS Consolidated Financial Statements Audit. This
report contains observations related to internal control deficiencies that were not
required to be reported in the Independent Auditors’ Report on DHS’ FY 2012 Financial
Statements and Internal Control over Financial Reporting. Internal control deficiencies
that are considered significant deficiencies were reported, as required, in the
Independent Auditors’ Report, dated November 14, 2012, which was included in the
DHS FY 2012 Annual Financial Report. We do not require management’s response to
the recommendations.

The independent public accounting firm KPMG LLP conducted the audit of DHS’ FY 2012
financial statements and is responsible for the attached management letter dated
November 14, 2012, and the conclusions expressed in it. We do not express opinions on
DHS’ financial statements or internal control, nor do we provide conclusions on
compliance with laws and regulations.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post a
redacted version of the report on our website.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006

November 14, 2012


Office of Inspector General
U.S. Department of Homeland Security, and
Associate Administrator, Federal Insurance and Mitigation Administration
U.S. Department of Homeland Security Federal Emergency Management Agency
Washington, DC


Ladies and Gentlemen:

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2012, and the related statements of net cost, changes in net
position and custodial activity, and combined statement of budgetary resources for the year then
ended (referred to herein as the “fiscal year (FY) 2012 financial statements”). The objective of
our audit was to express an opinion on the fair presentation of these financial statements. We
were also engaged to audit the Department’s internal control over financial reporting of the
balance sheet as of September 30, 2012, and the related statements of net cost, changes in net
position and custodial activity, and the combined statement of budgetary resources for the year
then ended based on the criteria established in Office of Management and Budget Circular No.
123, Management’s Responsibility for Internal Control, Appendix A.
Our Independent Auditors’ Report issued on November 14, 2012, describes a limitation on the
scope of our audit that prevented us from performing all procedures necessary to express an
unqualified opinion on DHS’ FY 2012 financial statements and an opinion on DHS’ internal
control over financial reporting as of September 30, 2012. In addition, the FY 2012 DHS
Secretary’s Assurance Statement states that the Department was unable to provide assurance that
internal control over financial reporting was operating effectively at September 30, 2012. We
have not considered internal control since the date of our Independent Auditors’ Report.
During our FY 2012 DHS audit, we noted certain matters involving the Federal Emergency
Management Agency’s (FEMA) National Flood Insurance Program (NFIP) internal control and
other operational matters that are presented for your consideration. These observations and
recommendations, all of which have been discussed with the appropriate members of
management of the named insurance companies (where applicable), FEMA’s Office of the Chief
Financial Officer, and FEMA’s Federal Insurance and Mitigation Administration and
communicated through a Notice of Finding and Recommendation, are intended to improve
internal control or result in other operating efficiencies and are summarized in Exhibit I of this
letter. These comments are in addition to the material weaknesses and significant deficiencies
presented in our Independent Auditors’ Report, dated November 14, 2012, included in the FY
2012 DHS Annual Financial Report. The status of our prior year observations is presented in
Exhibit II.
Certain control deficiencies related to FEMA information technology (IT) controls will be
presented in a separate letter to the DHS Office of Inspector General and the FEMA Chief
Information Officer, and certain other control deficiencies related to FEMA’s internal controls
exclusive of our IT findings will be presented in a separate letter to the DHS Office of Inspector
General and the FEMA Chief Financial Officer.

                                                            G
                                   G
                              KPMG LLP is a Delaware limited liability partnership,
                              the U.S. member firm of KPMG International Cooperative
                              (“KPMG International”), a Swiss entity.
                                                G

We would be pleased to discuss these observations and recommendations with you at any time.
FEMA’s written response to the observations and recommendations identified in this report,
presented in Exhibit III, has not been subjected to auditing procedures and, accordingly, we
express no opinion on it. Our auditors’ response is presented in Exhibit IV.
This report is intended for the information and use of DHS and FEMA management, the DHS
Office of Inspector General, the U.S. Office of Management and Budget, the U.S. Congress, and
the U.S. Government Accountability Office, and is not intended to be and should not be used by
anyone other than these specified parties.


Very truly yours,




                                                G
                                 G
                                     G

                                                                                                      Exhibit I 


G                                                                                                 G
I.GBACKGROUNDG

The Federal Insurance and Mitigation Administration of the Department of Homeland Security (DHS)
Federal Emergency Management Agency (FEMA) manages the National Flood Insurance Program
(NFIP). Private insurance companies and the Direct Servicing Agent administer the flood insurance
policies issued through the NFIP. The insurance companies and Direct Servicing Agent write NFIP
policies, adjust flood claims, process and distribute claim payments to policyholders, and establish and
maintain loss reserves. The data associated with flood policies and claims are used to calculate estimates
included in the year-end NFIP financial statements, which are recorded in the year-end DHS financial
statements. Thus, the precision of the estimates used to reflect actual events is dependent upon the
accuracy and consistency of the underlying data submitted by the insurance companies and the Direct
Servicing Agent on a monthly basis.
G
II.GINTERNALGCONTROLGDEFICIENCIESGRELATEDGTOGCLAIMSG
G
A.GG InternalGControlGDeficienciesGandGErrorsGIdentifiedGoverGClai sGPaid
G
Observation:
We selected nine insurance companies at which to perform audit procedures over claims paid for the
periods October 1, 2011, through March 31, 2012, April 1 through June 30, 2012, and July 1 through
August 31, 2012. For the nine companies selected, we tested a sample of claims paid totaling 434 items
covering the three testing periods identified above. During this testing, we noted the following internal
control deficiencies and errors:

    1)	Based on March 31, 2012, testwork, for one sample item, the date of loss was incorrectly
        reported.

                                                              DateGofGLossG   DateGofGLossGPerG
                  Co    an G              Polic GNo.G         PerGSa leG        Clai GFileG
                                                              09/07/2011        08/27/2011

    2)	Based on March 31, 2012, and June 30, 2012, testwork, for six sample items, the insurance
        company did not request a 60-day Proof of Loss waiver.

        March 31, 2012, Testwork Results:

                                                                               Da sGBetweenG
                                                                              DateGofGLossGandG
                  Co    an G              Polic GNo.G         DateGofGLossG    ProofGofGLossG
                                                              09/03/2011             69
                                                              10/28/2011             63
                                                              04/25/2011            147
                                                              08/23/2011             83
                                                              08/23/2011             62




                                                         G
                                     G
                                                        I.1
                                G
                                                                                            Exhibit I

    June 30, 2012, Testwork Results:

                                                                         Da sGBetweenG
                                                                        DateGofGLossGandG
             Co    an G             Polic GNo.G         DateGofGLossG    ProofGofGLossG
                                                        03/15/2012             70

3) Based on March 31, 2012, testwork, for two sample items, the insurance company requested a 60­
   day Proof of Loss waiver subsequent to the claim payment.

                                                         Pa entG        �aiverGRe��estG
             Co    an G             Polic GNo.G            DateG            DateG
                                                        12/11/2011       03/02/2012
                                                        02/24/2012       03/13/2012

4) Based on March 31, 2012, testwork, for one sample item, the Proof of Loss modification letter
   was not issued in a timely manner.

                                                         Pa entG
             Co    an G             Polic GNo.G            DateG         DateGofGLetterG
                                                        12/20/2011        03/02/2012

5)	Based on June 30, 2012, testwork, for one sample item, the 60-day Proof of Loss waiver obtained
    referenced the incorrect Proof of Loss. The insurance company issued the claim payment upon
    receipt of improper waiver approval.

             Co    an G             Polic GNo.G         DateGofGLossG    Pa entGDateG
                                                        08/28/2011        06/15/2012

6)	Based on June 30, 2012, and August 31, 2012, testwork, for three sample items, the amount of the
    payment did not agree to the final report.

    June 30, 2012, Testwork Results:

                                                                           (Under)/G
             Co    an G             Polic GNo.G         DateGofGLossG    Over a entG
                                                        08/28/2011           $(3)
                                                        08/28/2011           $10

    August 31, 2012, Testwork Results:


                                                                           (Under)G
             Co    an G             Polic GNo.G         DateGofGLossG      Pa entG
                                                        05/18/2012          $(0.03)

7) Based on June 30, 2012, testwork, for one sample item, the claim payment was not made timely.



             Co    an G             Polic GNo.G        ProofGofGLossG    Pa entGDateG
                                                        02/11/2012        04/17/2012

                                                   G
                                G
                                                  I.2
                                    G
                                                                                               Exhibit I


    8)	Based on June 30, 2012, testwork, for two sample items, the accident month per the sample did
        not match the accident month per the claim file supporting documentation:

                                                             AccidentG
                                                            MonthGPerG      AccidentGMonthG
                 Co    an G             Polic GNo.G          Sa leG          PerGClai GFileG
                                                            March 2012         May 2012
                                                            April 2012        March 2012

FEMA’s Federal Insurance and Mitigation Administration did not provide adequate oversight to ensure
claim files were processed and reviewed in accordance with NFIP guidelines before the approval and
issuance of claim payments.

Recommendations:
We recommend that FEMA’s Federal Insurance and Mitigation Administration:
    1) Follow-up with each of the insurance companies to determine if appropriate corrective action has
       been implemented to address the exceptions noted.
    2) Provide increased oversight to insurance companies participating in the NFIP to ensure claim
       files are being processed and reviewed in accordance with NFIP guidelines before the approval
       and issuance of claim payments.
G
B.G InternalGControlGDeficienciesGandGInacc�raciesGIdentifiedGoverGClai s'GLossGReservesG

Observation:
We selected nine insurance companies at which to perform audit procedures over the operating
effectiveness of controls related to the establishment and maintenance of loss reserves for the periods
October 1, 2011, through March 31, 2012, April 1 through June 30, 2012, and July 1 through August 31,
2012. For the nine companies selected, we tested a sample of claims paid totaling 434 items covering the
three testing periods identified above. We also performed audit procedures over the accuracy and
completeness of loss reserves established as of March 31, 2012, and August 31, 2012, over all insurance
companies. As of these dates, we tested a sample of 130 loss reserves reported. During these audit
procedures, we noted the following loss reserve errors:

    1)	Based on our March 31, 2012, and August 31, 2012, substantive testwork, for five sample items,
        the insurance company did not close the claim and/or related loss reserve without payment in a
        timely manner, causing reserves to be overstated.

        March 31, 2012, Substantive Testwork Results:

                  Co    an G            Polic GNo.G         DateGofGLossG   Overstate entG
                                                            04/27/2011         $21,400
                                                            06/12/2010         $30,000
                                                            08/28/2011         $51,196




                                                       G
                                    G
                                                      I.3
                                G
                                                                                           Exhibit I

    August 31, 2012, Substantive Testwork Results:

              Co    an G            Polic GNo.G         DateGofGLossG   Overstate entG
                                                        03/12/2009         $46,800
                                                        08/27/2011         $4,000

2) Based on our March 31, 2012, control testwork, for one sample item, the insurance company
   established the incorrect type of loss reserve related to the claim transaction.

                                                                        CorrectGLossG
              Co    an G            Polic GNo.G         DateGofGLossG   ReserveGT eG
                                                        10/31/2011        Building

3)	Based on our March 31, 2012, control testwork, for one sample item, the insurance company did
    not properly update the loss reserve related to the claim transaction to move reserves from
    Building to Contents, causing Building reserves to be overstated and Contents reserves to be
    understated.

                                                                          A o�ntG
                                                                         I ro erl G
              Co    an G            Polic GNo.G         DateGofGLossG     ClassifiedG
                                                        09/08/2011           $36

4)	Based on our March 31, 2012, and June 30, 2012, control testwork and our March 31, 2012, and
    August 31, 2012, substantive testwork, for 35 sample items, the insurance company did not
    properly update the loss reserve related to the claim transaction to reflect claim payments or
    additional adjuster reports, causing reserves to be misstated.

    March 31, 2012, Control Testwork Results:

                                                                        Over/(Under)G
              Co    an G            Polic GNo.G         DateGofGLossG    State entG
                                                        06/21/2011       ($29,693)
                                                        08/28/2011       ($52,561)
                                                        04/16/2011       ($17,050)
                                                        09/08/2011        ($4,300)
                                                        11/29/2011        $15,000
                                                        01/20/2012         $1,000
                                                        08/28/2011        ($3,432)
                                                        08/27/2011       ($17,652)
                                                        08/26/2011        ($1,000)
                                                        09/03/2011         ($388)
                                                        08/27/2011         $4,000
                                                        08/28/2011         $8,000
                                                        08/21/2011         $9,102
                                                        08/21/2011         $4,318
                                                        08/23/2011         $1,086
                                                        08/23/2011         $7,773
                                                        08/23/2011         $6,838
                                                        08/26/2011         $3,675
                                                   G
                                G
                                                  I.4
                                                                                         Exhibit I 



   March 31, 2012, Substantive Testwork Results:


                                                                        Over/(Under)G
              Co   an G             Polic GNo.G         DateGofGLossG    State entG
                                                        03/07/2012        ($54,000)
                                                        09/07/2011         $55,573
                                                        09/06/2011           $100
                                                        09/07/2011       ($100,000)
                                                        03/08/2012         $12,000
                                                        03/12/2012         $2,000
                                                        03/12/2012        ($10,000)
                                                        08/28/2011         $13,563
                                                        06/13/2008         $32,200
                                                        08/28/2011          $5,000
                                                        09/17/2004         $30,958

   June 30, 2012, Control Testwork Results:


                                                                        Over/(Under)G
              Co   an G             Polic GNo.G         DateGofGLossG    State entGG
                                                        08/28/2011         $6,203
                                                        08/27/2011         $4,916

   August 31, 2012, Substantive Testwork Results:


                                                                        Over/(Under)G
              Co   an G             Polic GNo.G         DateGofGLossG    State entGG
                                                        07/20/2012        ($5,678)
                                                        05/13/2012        $20,000
                                                        09/07/2011          $337
                                                        07/20/2012         $8,001

5)	Based on our March 31, 2012, substantive testwork, for one sample item, the insurance company
    incorrectly re-established reserves for a claim that was previously closed without payment,
    causing reserves to be overstated.

              Co   an G             Polic GNo.G         DateGofGLossG   Overstate entG
                                                        08/29/2005         $30,000

6)	Based on our March 31, 2012, June 30, 2012, and August 31, 2012, control testwork, for 27
    sample items, the insurance company did not establish a loss reserve related to the claim
    transaction for an Increased Cost of Compliance (ICC) claim or supplemental payment request.
    Payment was not made in a timely manner, causing reserves to be understated.

March 31, 2012, Control Testwork Results:

                                                                          (Under-G
              Co   an G             Polic GNo.G         DateGofGLossG    State ent)G
                                                        08/29/2011        ($9,771)
                                                   G
                                G
                                                  I.5
                                 G

                                                                                            Exhibit I 



June 30, 2012, Control Testwork Results:


                                                                            (Under-G
              Co    an G              Polic GNo.G         DateGofGLossG   State ent)G
                                                          03/14/2010        ($8,635)
                                                          08/27/2011       ($12,500)
                                                          08/28/2011       ($15,000)
                                                          08/28/2011       ($19,599)
                                                          08/29/2011         ($900)
                                                          08/28/2011       ($22,392)
                                                          08/28/2011        ($1,238)
                                                          08/28/2011        ($2,400)
                                                          08/28/2011      ($119,125)
                                                          08/27/2011       ($12,063)
                                                          08/27/2011        ($9,250)
                                                          08/27/2011        ($3,850)
                                                          08/27/2011        ($3,915)
                                                          08/28/2011        ($2,432)
                                                          08/28/2011        ($2,412)
                                                          08/28/2011        ($1,254)
                                                          08/28/2011       ($14,850)
                                                          08/28/2011        ($2,999)
                                                          08/29/2011       ($14,714)
                                                          06/11/2008        ($1,463)
                                                          08/27/2011         ($472)
                                                          08/27/2011        ($2,330)
                                                          08/28/2011        ($5,816)
                                                          09/08/2011        ($5,791)

August 31, 2012, Control Testwork Results:


                                                                            (Under-G
              Co    an G              Polic GNo.G         DateGofGLossG   State ent)G
                                                          08/28/2011       ($30,103)
                                                          08/28/2011        ($2,000)

7)	Based on our March 31, 2012, control and substantive testwork, we noted that one insurance
    company’s procedures did not require the adjustment of loss reserves based on the final report.
    As a result, for 20 sample items at that company, the insurance company did not update the loss
    reserve related to the claim transaction upon receipt of the final report.




                                                     G
                                 G
                                                    I.6
                                 G

                                                                                            Exhibit I 


    March 31, 2012, Control Testwork Results:


                                                                          Over/(Under)G
              Co    an G              Polic GNo.G         DateGofGLossG    State entG
                                                          08/21/2011        ($9,982)
                                                          08/27/2011         $5,921
                                                          08/27/2011        ($4,902)
                                                          08/27/2011        $37,132
                                                          08/28/2011        $22,243
                                                          08/28/2011         ($758)
                                                          08/28/2011       ($18,960)
                                                          08/28/2011         $5,512
                                                          08/28/2011        ($2,300)
                                                          08/28/2011        ($3,318)
                                                          08/28/2011        $11,098
                                                          08/30/2011         $3,813
                                                          08/31/2011        $16,637
                                                          09/07/2011         ($936)
                                                          09/08/2011        $10,714
                                                          09/08/2011        $74,122
                                                          09/08/2011        ($1,992)
                                                          09/09/2011        $11,230

    March 31, 2012, Substantive Testwork Results:


                                                                          Over/(Under)G
              Co    an G              Polic GNo.G         DateGofGLossG    State entG
                                                          08/28/2011       ($14,471)
                                                          08/27/2011        $12,416

8)	Based on our June 30, 2012, control testwork, for two sample items, the insurance company did
    not take a prior payment into account when loss reserves were re-established, causing reserves to
    be overstated.

              Co    an G              Polic GNo.G         DateGofGLossG   Overstate entGG
                                                          08/28/2011         $15,000
                                                          09/08/2011          $7,000

9)	Based on our June 30, 2012, control testwork, we noted that the loss reserve system at one
    insurance company autocorrected the loss reserve amount after the examiner correctly entered the
    estimate per the adjuster report. As a result, for six sample items at that company, the loss
    reserve related to the claim transaction was overstated.

              Co    an G              Polic GNo.G         DateGofGLossG   Overstate entG
                                                          08/28/2011         $1,377
                                                          08/28/2011         $1,247
                                                          08/28/2011           $4
                                                          03/29/2012          $447
                                                          03/30/2012          $336

                                                     G
                                 G
                                                    I.7
                                                                                                 Exhibit I 


                  Co    an G             Polic GNo.G         DateGofGLossG   Overstate entG
                                                             05/22/2012           $90

    10) Based on our August 31, 2012, substantive testwork, for one sample item, the examiner was
        unable to produce the adjuster report evidencing the reserve update.

                  Co    an G             Polic GNo.G         DateGofGLossG   Overstate entGG
                                                             09/09/2011        $156,121

FEMA’s Federal Insurance and Mitigation Administration did not provide adequate oversight to ensure
the specific and consistent establishment and reporting of loss reserves and subsequent adjustments to the
loss reserves.

Recommendations:
We recommend that FEMA’s Federal Insurance and Mitigation Administration:
    1) Follow-up with each of the insurance companies noted above to determine if appropriate
       corrective action has been implemented to address the exceptions noted.
    2) Provide increased oversight to insurance companies participating in the NFIP to ensure the
       specific and consistent establishment and reporting of loss reserves and subsequent adjustments
       to the loss reserves.
    3) Require insurance companies to update current policies, mandating that loss reserves be
        established for supplemental and ICC claims that will not be paid within a specified time period.
G
C.G InternalGControlGDeficienciesGandGErrorsGIdentifiedGoverGPre i� sG�rittenG

Observation:
We selected nine insurance companies at which to perform audit procedures over the operating
effectiveness of controls related to premiums written for the periods October 1, 2011, through March 31,
2012, April 1 through June 30, 2012, and July 1 through August 31, 2012. For the nine companies
selected, we tested a sample of premiums written totaling 450 items covering the three testing periods
identified above. We also performed audit procedures over the existence and accuracy of premiums
written over all insurance companies during the same periods identified above, resulting in a sample of
premiums written totaling 46 items. During these audit procedures, we noted the following deficiencies
and errors:

    1)	Based on our March 31, 2012, and June 30, 2012, control testwork, for two sample items, an
        underwriter did not review and approve the policy in a timely manner:

        March 31, 2012, Control Testwork Results:

                                                              EffectiveG
                  Co    an G             Polic GNo.G
                                                                DateG        A     rovalGDateG
                                                             07/21/2011          12/08/2011




                                                        G
                                     G
                                                       I.8
                                G
                                                                                             Exhibit I

   June 30, 2012, Control Testwork Results:

                                                         EffectiveG
              Co    an G            Polic GNo.G                          A     rovalGDateG
                                                           DateG
                                                        04/25/2012           06/26/2012

2)	Based on our March 31, 2012, June 30, 2012, and August 31, 2012, control testwork and August
    31, 2012, substantive testwork, for 18 sample items, the designated flood zone per the policy
    declaration page did not agree to the FEMA flood maps for the insured property address.

   March 31, 2012, Control Testwork Results:

                                                         Over/(Under)G
             Co    an G             Polic GNo.G
                                                          State entG
                                                           ($2,016)
                                                            ($821)
                                                             $475
                                                              $53
                                                              $43
                                                            ($322)
                                                           ($1,042)
                                                               $0

   June 30, 2012, Control Testwork Results:


                                                         Over/(Under)G
             Co    an G             Polic GNo.G
                                                          State entG
                                                            $(941)
                                                            $(401)
                                                           $(9,644)
                                                              $0
                                                              $0
                                                              $0
                                                              $0

   August 31, 2012, Control Testwork Results:


                                                         Over/(Under)G
             Co    an G             Polic GNo.G
                                                          State entG
                                                            $(542)
                                                             $677

   August 31, 2012, Substantive Testwork Results:


                                                         Over/(Under)G
             Co    an G             Polic GNo.G
                                                          State entG
                                                            $(827)




                                                   G
                                G
                                                  I.9
                                       G
                                                                                                     Exhibit I

    3)	Based on our June 30, 2012, and August 31, 2012, control testwork, for two sample items, we
        noted that the insured property address information provided on the policy declaration page was
        insufficient to determine the correct flood zone.

        June 30, 2012, Control Testwork Results:
G
                   Co    an G              Polic GNo.G           Polic GZoneG
                                                                     AE

        August 31, 2012, Control Testwork Results:
G
                   Co    an G              Polic GNo.G           Polic GZoneG
                                                                      X

    4)	Based on our August 31, 2012, control testwork, for one sample item, we noted that the insurance
        company calculated the premium using the incorrect elevation information on the elevation
        certificate.
G
                                                                ElevationG         CorrectG
                   Co    an G              Polic GNo.G
                                                                RateGUsedG      ElevationGRateG
                                                                   -5                 -4

FEMA’s Federal Insurance and Mitigation Administration did not provide adequate oversight to ensure
premiums written were properly approved. Additionally, FEMA’s NFIP Flood Insurance Manual does
not require all flood zones included in the insurance policy application to be verified by the underwriter.

Recommendations:
We recommend that FEMA’s Federal Insurance and Mitigation Administration:
    1)	Follow-up with each of the insurance companies noted above to determine if they have
        implemented the appropriate corrective action to address the exceptions identified.
    2)	Provide increased oversight to insurance companies participating in the NFIP to ensure they
        process and review underwriting files in accordance with NFIP guidelines.
    3)	Revise the NFIP Flood Insurance Manual to require that all flood zones included in insurance
        policy applications are subject to verification by an underwriter through the use of risk-based
        sampling techniques.
D.G Deficienc GIdentifiedGRelatedGtoGtheGPre arationGandGReviewGofGtheGRetros ectiveGReserveG
    Anal sis G

Observation:
The December 31, 2011, retrospective review completed by the third party contractor actuary and
reviewed by the FEMA Chief Actuary did not include a documented discussion of the large ($1.3 billion)
redundancy (i.e., the amount estimated in excess of the actual liability) of the actuarial insurance liability
calculated as of September 30, 2011.

Although the third party actuary and FEMA Chief Actuary discussed the large redundancy noted in the
retrospective review of the September 30, 2011, actuarial insurance liability and how the methodology
used to calculate this liability could be changed to provide a better estimate in the future, it was
determined that formal documentation of this analysis was not required.

                                                           G
                                       G
                                                         I.10
                                                                                               Exhibit I 



Recommendation:
We recommend that FEMA incorporate a documented comprehensive analysis of all large redundancies
noted in the actual to estimate comparison of the insurance liability during the retrospective review.




                                                    G
                                    G
                                                  I.11
                                     G

                                                                                                Exhibit II

                           STATUSGOFGPRIORGYEARGOBSERVATIONS

The status of each observation reported in our letter dated November 11, 2011, to the Office of Inspector
General, U.S. Department of Homeland Security, and Associate Administrator, Federal Insurance and
Mitigation Administration, Federal Emergency Management Agency, U.S. Department of Homeland
Security, is summarized in the table below. For each repeated observation, we provided the current year
Observation Number and Notice of Findings and Recommendations (NFR) Number.

                                                                            Disposition
        2011                                                                       Repeat (2012
     Observation Description                                         Closed      Observation No./
         No.                                                                         NFR No.)
                   Internal Control Deficiencies Identified                       II.A/ FEMA 12-07
         II.A
                   over Claims Paid                                                   and 12-07a
                                                                                  II.B/ FEMA 12-20
         II.B      Inaccuracies in Claims’ Loss Reserves
                                                                                      and 12-20a
G

G





                                                     G
                                     G
                                                   II.1
                                                                                                               Exhibit III



                                MANAGEMENT’S RESPONSE 

                                                                                r..le o.p""••• ,.rII ......... -~ . ,;'Y
                                                                                \I:~ IOII.   DC ..... 71




                                                                 8             FEMA
                                         MAR 2 1 Z01J


MEMORANDUM FOR:                  Anne L. Richard,
                                 Assistant In51""'tor c;.,n~T1d for Audits
                                 Office of Inspector General

fROM:                            l)avidJ, Kaufman                  t/lltk;l
                                 Associalc Administrator for      (1- )
                                 I'olicy, I'rogmm Analysis and Intcmntional A ITai"!

SUBJECT:                         FEMA Response to DIG Drnft Repon: "NalPonal Flood 11I.<urtmctl
                                 Program :s MlmugcmCII/ Lelle' for lhe Fl' 201] DHS COII$olitioled
                                 Filluildul Swwllem. AI/dpi ". Fo, Offidal U,'c Ollly . DIG Project
                                 NO. 12-073-AUD-FEMA.


Thanl )'ou for the opponunity to comment on tnc draft managcmcntlct1cr for (he FY 2012 DHS
Conso lidated Financial Statements Audit.

It may be hclpful if FEMA and KPMG meelto disc uss tnc opera1ions ortnc NaHonnl Flood
Insurance Program and walk through me complexities or the government insumnce progrom and
how it di!Tcrll from" private sector insuroncc program.

In rC"P"nse to Reserves (a case loss reserve in the pri"alc_sec10r insurance industry is a Iiabi! ity
that represents dollars set ""ide to pay that claim); the case loss '<'!'C ....·o is the estimate of fut ure
pa)m.nlS yet to be made on an iooi\'idu~l claim, and it is a good business practice for the case
loss =cr.·c to be roouooant by 5- 15%.

COntrary (0 the priv~tC S(.>(:tor industry. the NFIP setS u loss reSi.TVC attllc end orthe fiscal ycar
thai is an estimate offu(ure payments yet (0 be made on flood events !hat occurred on or t><:fore
lhe y"",.-end; (he ca>c loss '<'!;I; ....'c i. not sho"n on the financi.l slalement. WOOt is carried on
the finan<ial Sl.atement is a liability on (he balance socel for all c~pec(cd futur<: claims payments ,
indudini payments on claims IMt had not i'e! been reported to the NFIP b)' the end ofthe fi!'Cal
yenr. This laneT set orduims is kn()1.'.n as Incwre<l Bu( Not Reported (IBNR). Finally. the loss
rese ....·e estima1c is a liabi lity on the financial !;!atcmcn1 and dOC'S notlmpacl cash balances.




                                                   III.1

                                                                                                 Exhibit III





FEMA believe5 that the auditor's concerns oyer the CUJTel1t case reserve procedures is misplaced
since !he case reserves they have analyzed are no! directly rqx>ned on !he financial SUl!ement.
And while !he loss reserve estimate that is carried on !he financial statement is. in pan,
infl~ by the case resttveS, the NF1P aetuaries have demonstrated in Mllyses that have been
shared wi!h prior KPMG auditors that even a large change in the adequacy of !he case loss
reserves from !he historical pauem hasonly a very small influence on !he yw·end estimated
loss reserve. Due to !he difTertnccs ofopiniollS on !his maner, FEMA's Claims and Appeals
Bnwch believes it would be helpful to meet and discuss!hese concerns and issues wi!h KPMO.

Regarding Underwriting findings, Condition t: IlISlJronce pq/iclts call k InUlldwllhoul prope'
linuly ' tyinv and Q[JpI"l»al of/he umferwdllngjllts. Im:/I«i/ng app/lcallon OM supporllng
documentation. The report had identified an error which FEMA has agreed is an error, bin this
does not mean FEMA ~ts!he practice of allowing polities to be issued without underwriting
IeYiew and approval. FEMA requires that polities be rated and issued oomctly, the files
documented as required, and that service be proYide(\ in a timely manner as directed in the
service guidelines.

The repon also includes findings listed u Conditions 2 and 3: FEMA·s NFlP Flood Insu,ance
MornKd dots rIOI ,equlre oli jlood lanes included i" lhe insW"ollCt policy applicol/o" 10 be
w,lfied by lire U!ldtrwrlfe,. It is importanl to note thaI Companies arc RC]Uired to Yerlfy that !h.c
version of the Flood Insurance Rale Map (FIRM) used in determining the flood wne for a
building is !he cum:nllllllp. unless the grandfitthcring rule applies, which penni~ the use of an
earlier map in determining the flood zone. If the ~fatheri"i role applies, the Company is
required 10 doc:ument the file to show !hat the building is eligible for gnondfllihcring.

Companies maintain con~ual ammgements wi!h agents who submit the applications. It is the
responsibility of the .genllO determine the C(>JTCCt flood crone for the property and to supply !his
information on the .pplication. In addition, cc.>I1Ipanies arc required 10 obtain flood wne
detennirurtions to verify flood :wIltS only for Preferred Risk Policies in order to yerlfy the
building's eligibility for this lower.cost policy.

FEMA infonncd the auditors that their findings listed wider Conditions I and 2 arc ineorre<.:1
b.sed OIl the documentations proYide(\ by the writing companies.

Thank you again for !he opportunity to conunent on 010 Draft Report: ·WaliO/,al Flood
II'fSW"OIICt Progrom's Mo"ogemenl Ullt' for lhe FY Jon DHSCoIIJ()/idaltd F"inancwl
Slalemerlts Audll""- For OjJiclol Use Orlly: OIG Project No. n·07]·AUD·FEMA ,.. Pleasl!: direcl
My questions Rgarding this RsponSC to Oary McKeon, FEMA's Chief Audit limon, al
202-646-1308 .




                                                 III.2

                                                                                                Exhibit IV





                                       AUDITORS’ RESPONSE


FEMA’s response to the draft of this letter discussed our findings related to case reserves. During the
FY 2012 audit, we received a letter from FEMA’s third party contractor actuary describing the data
elements to be utilized in computing the actuarial insurance liability estimate as of September 30, 2012.
This letter, which guided our testing approach related to the insurance liability estimate, included case
reserves as one of the data elements used in the calculation. Our testing of data elements occurred
throughout FY 2012. FEMA’s year-end analysis demonstrated that case reserves were not a significant
factor in the calculation of the insurance liability estimate as of September 30, 2012; we took this
information into consideration in determining the severity of the conditions identified, which we
concluded to be control deficiencies, not more severe significant deficiencies.

In addition, in FEMA’s response, management indicated disagreement with certain conditions cited in
this letter.

Regarding Condition C.1 in Exhibit I, FEMA did not provide documentation to support that our
conclusions for the two sample items cited were incorrect; therefore, we believe that our conclusions are
accurate based on the evidence provided during the audit.

Regarding Condition C.2 in Exhibit I, at the time the audit work was performed and the exceptions were
initially communicated to FEMA and the insurance companies, concerns with the identified exceptions
were not communicated to us. Subsequently, when FEMA did indicate that certain exceptions may not be
accurate, FEMA did not provide documentation to support that our conclusions for these sample items
were incorrect; therefore, we believe that our conclusions are accurate based on the evidence provided
during the audit.




                                                   IV.1 

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   FEMA Administrator
   Chief Financial Officer
   FEMA Audit Liaison
   Deputy Associate Administrator for Insurance
   Director, Risk Insurance Division

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                                            OIG-13-86
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
